?

NO.

A

L -j

W'

5844

IN THE
a

SUPREME COURT OF THE UNITED STATES

In Re; Horacio Santamaria, Jr.
PETITIONER
“i

a

(Your name)
VS.
United States of America
RESPONDENT(S)
ON PETITION FOR A WRIT OF PROHIBITION PURSUANT TO
THE ALL WRITS ACT 28U.S.C. 1651(a) DIRECTED TO THE
ASSOCIATE JUSTICE WITH SUPERVISORY CONTROL OVER
THE FIFTH CIRCUIT, UNDER SUPREME COURT RULE 22-1
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULES ON YOUR CASE)
PETITIONER FOR WRIT OF PROHIBITION
HORACIO SANTAMARIA. JR.
FED.REG.# 94503-011
(Your name)
FEDERAL CORRECTIONAL INSTITUTION
LA TUNA
(Address)
P.O. BOX 3000, ANTHONY, NM/TX 88021
(City, State, Zip Code)

RECEIVED
SEP 1 6 2020
OFFICE OF THE CLERK
SUPREME COURT IIR

I

.'V'v Ht'K ’

i

(- .

•itA
1

CONSTITUTIONAL QUESTION

WHETHER THE GOVERNMENT'S UNAVAILING DEFENSE OF THE INDEFENSIBLE WITH RESPECT TO THE
INDICTMENT, INADEQUATE JURY INSTRUCTIONS, PROSECUTORIAL MISCONDUCT OUTSIDE THE GRAND JURY, AND
CONSTRUCTIVE DENIAL OF COUNSEL, WERE CLEARLY PREJUDICIAL TO HORACIO SANTAMARIA, FOR WHICH BY
ANY STANDARD OF REVIEW, THE COURT SHOULD FIND COUNSEL'S PERFORMANCE HOPELESSLY DEFICIENT,
BORDERING ON CONSTRUCTIVE DENIAL OF COUNSEL

4

it

»
-=

t:

:^

• t

;
LIST OF PARTIES
In re: Horacio Santamaria, Jr.
-VUnited States of America
THE NAMES OF ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER PAGE. THERE ARE NO
ADDITIONAL PARTIES.

* 1

Ii

'i)

ticNR'S HU-Wr

■.:;*■

■'.•■j'r y, := yr-

r;

link- i

m+s

TABLE OF CONTENTS
OPINIONS BELOW

I

JURISDICTION

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS, INVOLVED

3

STATEMENT OF THE CASE
REASONS FOR GRANTING

)V

CONCLUSION
INDEX TO APPENDICES
■APPENDIX A --JUDGMENT FROM COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX B --JUDGMENT AND COMMITMENT FROM THE DISTRICT COURT WESTERN DISTRICT OF TEXAS -PECOS DIVISION

i

;

V. >T3

?■*.

' J vv.:

..

«V:
PM

NO.

IN THE
ft*

SUPREME COURT OF THE UNITED STATES

.A

In Re; Horacio Santamaria, Jr.
PETITIONER
A
A

(Your name)
VS.
United States of America

A

£

RESPONDENT(S)
ON PETITION FOR A WRIT OF PROHIBITION PURSUANT TO
THE ALL WRITS ACT 28U.S.C. 1651(a) DIRECTED TO THE
ASSOCIATE JUSTICE WITH SUPERVISORY CONTROL OVER
THE FIFTH CIRCUIT, UNDER SUPREME COURT RULE 22-1
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULES ON YOUR CASE)
PETITIONER FOR WRIT OF PROHIBITION
HORACIO SANTAMARIA. JR.
FED.REG. #94503-011

i

(Your name)
FEDERAL CORRECTIONAL INSTITUTION
LA TUNA
(Address)
P.O. BOX 3000, ANTHONY, NM/TX 88021
(City, State, Zip Code)

AT-C-v

" O'.
-1

i. :
•i

O'fc' ■ ^ ’

AM

CONSTITUTIONAL QUESTION

WHETHER THE GOVERNMENT'S UNAVAILING DEFENSE OF THE INDEFENSIBLE WITH RESPECT TO THE
INDICTMENT, INADEQUATE JURY INSTRUCTIONS, PROSECUTORIAL MISCONDUCT OUTSIDE THE GRAND JURY, AND
CONSTRUCTIVE DENIAL OF COUNSEL, WERE CLEARLY PREJUDICIAL TO HORACIO SANTAMARIA, FOR WHICH BY
ANY STANDARD OF REVIEW, THE COURT SHOULD FIND COUNSEL'S PERFORMANCE HOPELESSLY DEFICIENT
BORDERING ON CONSTRUCTIVE DENIAL OF COUNSEL

a

STATEMENT OF JURISDICTION
The Supreme court of the United States has original jurisdiction over three
categories of case, first, the Supreme Court can exercise original jurisdiction
over "actions of proceedings to which ambassadors, other public ministers,
consuls, or vice consuls or foreign states are parties." See, e.g. Maryland v.
Louisiana, 451 U.S. 725,737 (1981).
Second, the Supreme court also possesses original jurisdiction for "(all)
controversies between the United States and a state," 28 U.S.C. Section 1251(b)
(2).
Finally, Section 1251 provides for original jurisdiction in the Supreme court,
"for (all) actions or proceedings by a state against the citizens of another
state or against aliens." See, Oregon v. Mitchess, 400 U.S. 112(1970), United
States v. Louisiana, 339 U.S. 699 (1950), United States v. California, 332 U.S.
19 (1947).
The statutes defining the Supreme Court's jurisdiction between "appeal" and
"certiorari" as vehicles for appellate review of the decision of state and lower
federal courts. Where he statutes provides for "appeal" to the Suprimr court,
the Court is obligated to take and decide the case when appellate review is
requested. Where the statute provides for review by "writ of prohibition,"
the court has completer case if there are for votes to grant prohibition
Effective September 25,1988, the distinction between appeal and prohibition
as a vehicle for review was virtually entirely eliminated. Now almost all
cases come to the Supreme Court by writ of prohibition. Pub.L.N. 100-352,102
Stat. 662 (1988).
WRIT OF PROHIBITION PURSUANT TO 28 U.S.C.. ACTION 1651 IN AID OF THE SUPREME
COURT'S JURISDICTION.
(a) The “Supreme'Court and all courts established by Act of Congress, may issue
all writs necessary or appropriate in aid of their respective jurisdictions
and agreeable to the usages and principles of law.
(b) An alternative writ or law may be issued by a justice or judge of a court
which has jurisdiction.
Utilizing Rule 22-1 of the Supreme Court Rules, a justice (Associate Justice of
the Eight Circuit to whom an application to a Writ of prohibition is submitted
may refer to the Court for determination.

2-'

*

.

■

CONSTITUTIONAL AND STATUTORY PROVISIONS

In conducting harmless error analysis of constitutional violations, including direct appeals and especially habeas generally, the
Supeme Court reoeatedly has reaffirmed that "(s)ome constitutional violations ...by their very nature asr so mushd doubt on the
fairness of the trerila prpcess that, as a matter of law, they can never be considered harmless. Safferwhite v. Texas, 486 U.S,
249, 256 (1988); accord Neder v. United States, 527 U.S. 1, 7 (1999)("We have recognized a limited class of fundamental
constitutional errorss tht defy anaklysisby "harmless error," standards"...Errors of this typte are so intribsically garnfuk as to
require automatic reversal(i.e. affect substantial rights) without regard to their effect on tha outcome.")
Sullivan v. Louisiana, 508 U.S. 275, 279 (1993))"Although most constiotutuionasl errors have been held to harmless error
analysis, some will always invalidate the conviction" (citations omitted), Id. at 183 (Rehnquist, C.J. concurring); United States v.
Olano, 507 U.S. 725, 735 (1993); rOSE V. cLARK, 478 u.s. 570, 577-78 (1986)("some comstitutional r=errors require reversal
without regard to the evidence in the particulat=r case...because they render a trial fundamentally unfair");
Vasquez v. Hillery, 474 U.S. 254, 283-264 (1986); Chapman v. Caslifornia, 386 U.S. 18, 23 (1967)("there are =some
constitutional arihgts so basic to a fair trrial that their infracion can nevce be treated as harmless er ror").
JUDICIAL NOTICE/STATEMENT F ADJUDICAIVE FACTS PURSUAT TO T=RULE 201 OF THE FEDERAL RILES OF
EVIDENCE.
The right to effective assistance of counsel. See, Kyles v. Whitley, 514 U.S. at 435- 436; United Sttes v. cronic, 466 U.S. 648,
654-57 (1984); Hill v. Lockhart, 28 F.2d 832, 839 (8th Cir. 1994)("lt is unnecessry to add a separate layer of h=amless-error
analysis ato bar ecaluation of whether a petitioner has presented a constitutionally significant claim for ineffecrive assistance of
counsel).
LAW RELATED TO STRUCTURAL ERROR
Included in the rights granted by the U.S. constitution, is the protection agaisnt prosecutorial suppression or manipulation of
exculpatory evidence and aathe prosecutorial and judicial failures that amount to fruad upon the court. Failure to make available
to defendant's cpounsel,'information tht cpuld well lead to the assertion of an affirmative defense is material, when 'materiality1
is defeoined as at least a 'rasonable probability thty has the evidence been diclosed to the defense, the result of the judicial
proc eedsings would have been diferent. Kyles v. Whit;ley, 514 U.S. at 435 (quoting Unitred States v. Bagley, 473 U.S. 667, 682
(1985)(plurality opinion); Id. at 685 (White, J. concurring in judgment)). Counsel impermissibly withheld evidence of strictissimi
juris).
In addition to Bagley whjich addresses cliams of prosecutporial suppreession of evidnece, the decisions listed below, all arising
in 'whart might be loosely be called the area of constitutionally guaranteed access ot evidence," Arizona v. Youngblood, 488
U.S. 51\ 55 (1988)(quoting U.S. v. Valenzula-Bernal, 458 U.S. 856, 867 (1982) or require proof of "matariality" or prejudice.
Yhe standard of materiality adopted in each case is not alwsys clear, but if that standard required ar least a "reasonable
probability" of a different outcome, irts satisfaction also automatically satisfies the Btrecht harmless errro rule. See, e.g. Arizona
v. Youngblood, supra at 55 (reognizing athe due process vioaltion basesd on state's loss or destruction befoe trril of material
evidence); Pennsylvania v. Ritchie, 480 U.S. 39, 57-58 (1987)(recognizing due process violation bases on state agency's
refusal to turn over material social services records' "information is material" if it "probably would have changed the outcome of
histrial "citing United States v. Bagley, supra at 685 (White, J. concurring in judgement).
Ake v. Oklahoma, 470 U.S. 68, 83 (1985)(denia! of access by indigent defendat to expert psychaitrist violates Deu Process
Clause when defednat's mental condition is "significant factor" atguilt-innocence or captial sentencing phase of trial); Californai
v. Trombetta, 467 U.S. 479, 489-90 (1984)(destruction of blood sasmples might violate Due Process Clause, if there were more
than slim chance tt evidence would affect outcome of trial and if there wasre no alternative meeans of demsostrating
innocence.)United Stsates v. Valenzuaela-Bernal, supra at 873-874 ("As in other cases concerning the loss (by staste or
goivernment of material evidnece, sanctions will be warranted for deportation of alien witness only if there is a reasonable
likelihood tht the testimony could have affected the judgment of the Trie of Fact. "Chambers v. Mississippi, 40 U.S. 284, 302
(1973)(evidentiary process."); Washoington v. Texaas, 388 U.S. 14, 16 (1967)(violation of Compulszory Process Clause when it
arbitrarily deprived defednant of "testimony (that) would have been relevant and material, and ....vital to his defense.").

3,

STATEMENT OF THE CASE
On March 8, 2018, Horacio Santamaria, Jr. ("Santamaria") was indicted in a two count indictment with a violation of 21 U.S.C.
Sub-Section 952, 960 & 841. ROA.14-15. The indictment charged Santamaria with importation of marijuana and possession of
marijuana with intent to distribute. ROA,, 14-15. The following facts were adduced at the trial of this case.
Officer Patrick James Hardin ("Hardin") with Brewster County Sheriffs Office testified that on January 3, 2018 he was on duty
observing the Rio Grande in the Lajitas, Texas area. ROA.201. The area is about 100 yards from Mexico. ROA 202. At around
6.30 am Officer Hardin observed a vehicle from a distance come through the area and four or five individuals with very lat=large
backpacks get out of the back of the truck. ROA. 203.
The individuals started crossing the river into the United States side,. ROA.203-204. After crossing the river, a white ford pickup
with a camper shell appeared in the area to pick up the individuals. ROA.203. Shortly after witnessing these events, agents
began pursuing the white vehicle. ROA.204. Once the officer was in pursuit he noticed that the vehicle was a van, not a truck
ROA.204.
Sometime later, near a riverbank, the truck stopped and the individuals ran out of the vehicle. ROA. 204. Hardin arrived and did
not find anyone in the van but did locate duffle bags. ROA.204. Hardin heard water splashing, as the individuals were trying to
get across back into the Mexico area. ROA.205. Officers were unable to apprehend nor identify anyone that abandoned the
white van. ROA.206. Hardin was not able to identify anyone involved in the pursuit because the events occurred quicky and
from a distance. ROA.223.
Inside the abandoned vehicle, law enforcement agents found a registration for the vehicle showing that it was registered to
Santamaria. ROA.207-208. The agents eventually found seven duffle bags filled with marijuana in the abandoned van.
ROA.224. The total weight of the marijuana located in the duffle bags was 148.8 kilograms. ROA.230. Agents also found a
photo copy of a permanent resident card belonging to Santamaria inside the vehicle. ROA.233.267. Agents obtained
surveillance video from a convenience store in Presidio, Texas that showed the van in question and Santamaria operating the
van. ROA.235.
On the video, agents also observed Santamaria talking with occupants of a blacK GMC Yukon Denali at the convenience store.
ROA.284-285. The port of entry docuents showed Santmaria crossed on foot and in a different vehicle on the way back.
ROA.287. The border crossing reports showed that santamaria was frequent crasser into Mexico as was customary for
individuals that resided in the Presidio area. ROA. 300-301.
The reports did not show whether Santamaria or his wife were individuals driving or sitting as passengers when the vehicle
crossed. ROA.302. Lorenzo ("Hernandez") testified at trial regarding his interactions with Santamaria. ROA.326. Hernandez
waas a convicted felon with aprior bribeery conviction. ROA.328. Hernandez tesrtified that Santmaria was formerly one of his
drivers for his trucking business. ROA.329. Hernandez testified that Santamaria stopped working for him around Novemebr of
2018 because law enforcement was looking for him. ROA.334. Hernandez said that Santamaria told him that he had sold a van
and the van beenloaded with marijuana. ROA.335. Santamaria told Hernandez that he did not have anything to do ewith the
marijuana venture. ROA.335.
Kimberly renea Alvidrez ("Alcvidrez") also testified at trail regarding her interaction with santamaria. ROA.358-361. Alvidrez was
a convicted felon fro case smugling.evasing from law engorcement, and tamperoing with government records. ROA.358-361,
389. Alvidrez testified that the white van in question belonged to her. ROA.367. Alvidrez testified she could use the vehicle to
pick up drugs at various times and days.

r

At the conclusion of the evidence and closing arguments, the jury returned with a verdict of not guilty on count one and a verdict
of guilty on count two. Santamaria objected to several adjustments attributed to him in the presentencing report, (sentencing
report). Santamaria objected to the relevant conduct, his role in the offense, his alleged obstruction of justice, and alleged use
of a minor in committing the offense. ROA.641-643. The district court denied all of Santamaria's objections. ROA.615-620. The
district court then sentenced Santamaria to a term of 151 months incarceration. ROA.623. On July 23, 2019, Santamaria timely
filed a notice of appeal. ROA.111-112.

~

i ,
■

' m-

■-!.

.

:

■>«»

■*j *

f

a

■

;< :-.vfi f-n <

REASONS FOR GRANTING
HOW THE WRIT WILL BE IN OF THE COURT'S APPELLATE JURISDICTION IN GRANTING A WRIT OF PROHIBITION
As a threshold matter, Horacio Santamaria, avers that the writ of prohibition which he has applied for here, is an extraordinary
writ under the All Writs act 28 U.S.C. Section 1651(a) which in pertinent part, states that, all courts established by Act of
congress may issue all writs necessary or appropriate in aid of their respective jurisdictions, and agreeable to the usages and
principles of law.
In the case at bar, Horacio Santamaria contends that what he seeks is a "drastic and extraordinary remedy" reserved for really
extraordinary causes such as this, "where through a combination of constructive denial of counsel, prosecutorial misconduct
and a biased judge, he has been impermissibly denied his Fifth and Sixth Amendment right to Due Process. As here, the
traditional use of the writ is in aid of appellate jurisdiction both in common law an in the federal court. It's use has been has
been to confine the court(s) against which the writ is sought, to a lawful exercise of its prescribed jurisdiction. "Roche v.
Evaporated Milk Association, 319 U.S. 21,26, 87 L.Ed. 1185.
HORACIO SANTAMARIA'S CONTENTION THAT THE ALLEGATIONS HE MAKES CONSTITUTE "EXCEPTIONAL
CIRCUMSTANCES’ THAT WARRANTS THE INTERVENTION OF THIS COURT'S DISCRETIONARY POWERS.
Horacio Santamaria was convicted by a jury of aiding and abetting the possession with intent to distribute marijuana in violation
of 21 U.S.C. Section 841((a)(1), (b)(1)(B), and 18 U.S.C. Section 2, and he was sentenced within the guidelines range of 151
months of imprisonment and five years of supervised release. In his appeal to the Fifth Circuit Court of Appeals he contends
and challenges the fact that the evidence was insufficient to support his conviction and that his sentence is procedurally
unreasonable. To back up his argument, he argued before the Fifth Circuit Court of Appeals that the court's drug quantity
calculation was erroneous and because the application of enhancements under U.S.S.G. Section 3D.1 and U.S.S.G. Section
2D12.1(b)(16)(B)(i) were not warranted in light of the record, that categorically shows the evidence was insufficient to show hat
he purposefully associated with he transportation of marijuana on January 3, 2018, ad that he sought by his actions for the
transportation of marijuana to succeed.
By reason of the constitutional violations committed by the distinct Court and the Court of appeals for the Fifth Circuit, this
Honorable Court should overturn his sentence and conviction because the district court, effectively lost subject matter
jurisdiction, by reason of the constitutional violations perpetuated against Horacio Santamaria , while the Court of Appeals for
the Fifth Circuit rubberstamped these errors of constitutional dimensions.
The use of a Writ of Prohibition is well settled. It is patently clear in two Supreme Court cases in Dairy Queen Inc. v. Wood, 469
U.S. L.Ed.2d 44 825 S.Ct. 894 (1962), and Beacon Theatres v. Wood, 359 U.S. L.Ed.2d 988, 79 S.Ct. 894 (1959), support the
use of the writ of prohibition to correct an abuse of discretion by the district court. Personette v. Kennedy)in re Midgard Corp,
204 B.R.764, 768 (10th Cir. 1997).
Liker the case at bar, the following cases show thug the distinct court "displayed a persistent disregard of the criminal and civil
rules of procedure. "Moothart v. bell, 21 F.3d. 1499, 1504 (10th Cir. 19940(quoting McEwan v. City of Norman, 926 F.2d 1539,
1553-54 (10th Cir. 1991); Jennings v. Rivers, 394 F.3d 850, 854 (10th Cir. 2008)(appellate review of trial court's decision on pos
judgment warrants voluntary dismissal with prejudice if it was not "free, calculated and deliberated choice"). Hackett v. Barbhart,
475 F.3d 1166, 1172 (10th Cir. 2007)(quoting Kiwas Indian tribe of Oklahoma v. Hoover, 150 F.3d 1163, 1165 (10th Cir. 1998) In
re Graves, 609 F.3d 1153,1156 (10th Cir. 2010); See Braunstein v. McCabe, 571 F.3d 108, 120 (1st. Cir. 2009)(giving courts
broad discretion in preventing injustice or fairness.
The real issue at stake in this case is one of subject matte jurisdiction. Subject matter jurisdiction also refers to the competency
of the court to hear or determine a particular category of cases. Federal district courts have "limited" jurisdiction in that they
have no such jurisdiction as is explicitly conferred by federal statute. 3231 et seq.
Thus, given the totality of the claims raised by Horacio Santamaria in this petition, he expects the Supreme court to determine
of the district court and the court of Appeals for the Fifth Circuit properly exercised the jurisdiction conferred on it by 28 U.S.C.
3231 and 28 U.S.C. 1291 respectively, and whether the constitutional prohibition against Double Jeopardy, includes within it,

6> •

' aXreiSisv'cS 477Ubesdar496TJ'°Perm"3de,endant,0ralse°"

iatfS“Brad-;-~

^^r^c^rta"°^^‘^n“so,2u (K1^ cs?813 “ns",‘, |ona| |ssues <°

ensure correct
availability„,a ZXmfor'SSS" 'ha'3deqUa,eqrote'=<‘°"°'SuSXte.'!^S^^!anlu^lateral

showcausefortheproce^urally defeuKedcSms"'appeaL Thus Petitioner can

sa^SSSSSiSS^sSaSBSSsKcounsel,

PETITIONER'S FURTHER PROFFER

OF ACTUAL INNOCENCE.
the

innooenf S^S, 327^9^

I^^ipH=ss:sp=:
U.s^ 253 (1993).

federal la- Sea aiso Murray ,. Carrier, 477 US. 47ftW<,(W^).'3^ Pea"

52?

LAW RELATED TO STRUCTURAL ERROR

Included in the rights granted by the U.S. constitution, is the protection against prosecutorial
suppression or manipulation of exculpatory evidence and the prosecutorial and judicial failures
that amount to fraud upon the court. Failure to make available to defendant's counsel,
information that could well lead to the assertion of an affirmative defense is material, when
'materiality' is defined as at least a 'reasonable probability that has the evidence been disclosed
to the defense, the result of the judicial proceedings would have been different. Kyles v.
Whitley, 514 U.S. at 435 (quoting United States v. Bagley, 473 U.S. 667, 682 (1985) (plurality
opinion); Id. at 685 (White, J. concurring in judgment)). Counsel impermissibly withheld
evidence of strictissimi juris).

In addition to Bagley;which addresses claims of prosecutorial suppression of evidence, the
decisions listed below, all arising in 'what might be loosely be called the area of constitutionally
guaranteed access to evidence," Arizona v. Youngblood, 488 U.S. 51', 55 (1988)(quoting U.S. v.
Valenzula-Bernal, 458 U.S. 856, 867 (1982) or require proof of "materiality" or prejudice.

The standard of materiality adopted in each case is not always clear, but if that standard
required at least a "reasonable probability" of a different outcome, its satisfaction also
automatically satisfies the Utrecht harmless error rule. See, e.g. Arizona v. Youngblood, supra at
55 (recognizing the due process violation based on state's loss or destruction before trail of
material evidence); Pennsylvania v. Ritchie, 480 U.S. 39, 57-58 (1987)(recognizing due process
violation bases on state agency's refusal to turn over material social services records' /
"information is material" if it "probably would have changed the outcome of his trial "citing
United States v. Bagley, supra at 685 (White, J. concurring in judgement).

-

Ake v. Oklahoma, 470 U.S. 68, 83 (1985)(denial of access by indigent defendant to expert
psychiatrist violates Due Process Clause when defendant's mental condition is "significant
factor" at guilt-innocence or capital sentencing phase of trial); California v. Trombetta, 467 U.S.
479, 489-90 (1984)(destruction of blood samples might violate Due Process Clause, if there
were more than slim chance evidence would affect outcome of trial and if there was no
alternative means of demonstrating innocence.)United States v. Valenzuaela-Bernal, supra at
873-874 ("As in other cases concerning the loss (by states or government\>f material evidence,
sanctions will be warranted for deportation of alien witness only if there is a reasonable
likelihood that the testimony could have affected the judgment of the Trier of Fact. "Chambers
v. Mississippi, 40 U.S. 284, 302 (1973)(evidentiary process."); Washington v. Texas, 388 U.S. 14,
16 (1967)(violation of Compulsory Process Clause when it arbitrarily deprived defendant of
"testimony (that) would have been relevant and material, and ..,.vital to his defense.").

‘LAW RELATED TO STRUCTURAL ERROR FOR JUDICIAL BIAS WITH RESPECT TO THE FAILURE OF
THE COURT TO DETECT FROM THE JUDICIAL PROCEEDINGS THAT IT MAY HAVE BEEN DIVESTED
OF SUBJECT MATTER JURISDICTION.

Included in eh definition of structural errors, is the right to an impartial judge, i.e. the right to a
judge who follows the constitution and Supreme Court precedent ad upholds the oath of the
office. See, e.g. Neder v. United States, supra, 527 U.S., at 8. ("biased trail judge is "structural
error" and this is subject to automatic reversal:)' Edwards v. Balisok, 520 U.S. 461, 469 (1997);
Sullivan v. Louisiana, 508 U.S., at 279; Rose v. clerk, 478 U.S. 570, 577-78 (1986); Tunney v.
Ohio, 273 U.S. 510, 523 (1927).

;

I

;
!

M.sFS :i? ■

'Ty jrv ,.->s

V,;?/

jBjrrr. r'^v.' .jet QH

A

CONCLUSION

WHEREFORE, HORACIO SANTMARIA moves this Honorable Court to grant this application for a writ of Prohibition.
DATE: AUGUST 4, 2020.

RESPECTFULLY SUBMITTED,

A

HORACIO SANTAMARIA

>

1^1-.

4

